U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 13, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Lonny E. Baley, et al. v. United States, S. Ct. No. 19-1134
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 13,
2020, and placed on the docket on March 17, 2020. The government’s response is due on April
16, 2020.
We respectfully request, under Rule 30.4 of the Rules of this Court, an extension of time
to and including May 14, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-1134
BALEY, LONNY E., ET AL.
USA, ET AL.

DAVID ALDJEM
DOWNEY BRAND LLP
621 CAPITOL MALL
18TH FLOOR
SACRAMENTO, CA 95814
DALADJEM@DOWNEYBRAND.COM
DAVID FILIPPI
STOEL RIVES LLP
760 SW NINTH AVE.
SUITE 3000
PORTLAND , OR 97205
503-294-9529
DAVID.FILIPPI@STOEL.COM
JAMES L. HUFFMAN
5340 S.W. HEWETT BLVD.
PORTLAND, OR 97221
503-203-1583
DAVID LERWILL
LAW & RESOURCE PLANNING ASSOCIATES
ALBUQUERQUE PLAZA
201 THIRD STREET NW, SUITE 1750
ALBUQUERQUE, NM 87102
505-346-0998
DML@LRPA-USA.COM

DAMIEN M. SCHIFF
PACIFIC LEGAL FOUNDATION
930 G STREET
SACRAMENTO, CA 95814
916-419-7111
DSCHIFF@PACIFICLEGAL.ORG
PAUL SCOTT SIMMONS
SOMACH SIMMONS & DUNN
500 CAPITAL MALL
SUITE 1000
SACRAMENTO, CA 95814
916-446-7979
PSIMMONS@SOMACHLAW.COM
MATTHEW WARING
MCDERMOTT WILL & EMERY
500 NORTH CAPITOL STREET, NW
WASHINGTON, DC 20001-1531
202-756-8078
MWARING@MWE.COM

